                               Closeout for M97020006


       A complainant1 told us that the subject,* another professor at the complainant's
universky, had plagiarized from the complainant's grant proposal, and their university
retaliated against him when he complained about the plagiarism. The complainant
requested treatment as a confidential source, and expressed significant concern about
possible further retaliation; specifically, he told us that he did not

       agree to any contacts that use my name and cause me to be subjected to
       additional reprisal actions.

In subsequent correspondence the subject reiterated his abhorrence of any inquiry that
identified him in any way.

      Ensuring confidentiality is a primary concern for our office, and we have stated
unequivocally that

      the complainant participates in the case only if willing to do so, and then
      only as a witness. . . . NSF believes it is essential to encourage good faith
      complainants to come forward, and accordingly keeps the identity of a
      complainant confidential unless the complainant is willing to be a witnessS3,




To investigate whether the complainant was the victim of plagiarism or whether
retaliatory actions were taken against him by individuals at his university, we would at
some point have to be able to identify him in our inquiries of faculty and staff at the
university. The complainant's insistence that we not do so precluded further inquiry, and
as a result we have closed this case.




3
  K.G. Herman, P.L. Sunshine, M.K. Fisher, J.J. Zwolenik & C.H. Herz, "Investigating
Misconduct in Science: The National Science Foundation Model," 65 J. HIGHER
                                                                          ED. 384, 388
(1994).


                                       Page 1 of I                                M97-06
